*
'V

UNPUBLISHED

vi

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1872
In re: ABDU-SALIM GOULD,
Petitioner.

i

On Petition for Writ of Mandamus. (5:20-hc-02074-D)
Submitted: December 22, 2020

Decided: December 28, 2020

Before NIEMEYER, FLOYD, and RICHARDSON, Circuit Judges.
Petition denied by unpublished per curiam opinion.
Abdu-Salim Gould, Petitioner Pro Se.
Unpublished opinions are not binding precedent in this circuit.

1
PER CURIAM:
Abdu-Salim Gould petitions for a writ of mandamus seeking an order directing his
immediate release or an order directing the district court to grant his 28 U.S.C. § 2254
petition. He also seeks credit for time served. We conclude that Gould is not entitled to
mandamus relief.
Mandamus relief is a drastic remedy and should be used only in extraordinary
circumstances. Cheney v. U.S. Dist. Ct., 542 U.S. 367, 380 (2004); In re Murphy-Brown,
LLC, 907 F.3d 788, 795 (4th Cir. 2018). Further, mandamus relief is available only when
the petitioner has a clear right to the relief sought. Murphy-Brown, 907 F.3d at 795.
The relief sought by Gould is not available by way of mandamus. Accordingly, we
deny Gould’s petition for writ of mandamus and his supplemental petition. Additionally,
although we grant Gould’s motion for leave to file a motion for injunctive relief, we deny
his motion for a stay of his § 2254 proceeding, and deny his motions for an order to show
cause, for a preliminary injunction or temporary restraining order, or for disciplinary
proceedings directed to prison officials and to the judges and court personnel of the Eastern
District of Virginia.

We dispense with oral argument because the facts and legal

contentions are adequately presented in the materials before this court and argument would
not aid the decisional process.
PETITION DENIED

2

